tAST BATON ROUGE PARISH C-6746"M
.

Filed Jan 02, 2020 2:58 PM
Deputy Clerk of Court

24

DOCKET NO.: C-674614 SEC. 24

GLENN DAMOND

19th JUDICIAL DISTRICT COURT
VERSUS
FRANK A. MARULLO, III, PAUL A. BONIN,
NICHOLAS STEPHEN BERGERON, LEON A.
CANNIZZARO, JR., and JUDICIARY COURTS
OF THE STATE OF LOUISIANA
t

EAST BATON ROUGE PARISH
STATE OF LOUISIANA

JUDGMENT
Pursuant to the Court of Appeal, First Circuit, Limited Remand Order In re:
Glenn Damond vs. Frank A. Marullo, III, Paul A. Bonin, Nicholas Stephen Bergeron,
Leon A. Cannizzaro Jr., and Judiciary Courts of the State of Louisiana (both entities),
Docket Number 2019 CA 0676, remanding to the trial court for the limited purpose
of issuing a single judgment, containing sufficient specificity, addressing all
ruling(s) of the February 11, 2019 hearing as to all parties, i.e. Judge Paul Bonin,
Frank A. Marullo, III, the Judicial Courts of Louisiana, Leon Cannizzaro and Nicholas
Bergeron. Given the Court of Appeal, First Circuit's Limited Remand Order,
IT IS HEREBY ORDERED, ADJUDGED, and DECREED that the Exception of
Lack of Procedural Capacity relative to the Judiciary Courts of Louisiana filed by
Judge Paul Bonin, Frank A. Marullo, III, and the "Judiciary Courts of Louisiana" is
SUSTAINED and plaintiffs petition as to the Judiciary Courts of Louisiana is
DISMISSED, with prejudice, at plaintiffs cost.
IT IS FURTHER ORDERED, ADJUDGED, and DECREED that the Peremptory
Exception of No Right1 of Action relative to Judge Paul Bonin, Frank Marullo III, and
the Judiciary Courts of Louisiana filed by Judge Paul Bonin, Frank A. Marullo, III, and
the “Judiciary Courts of Louisiana" is SUSTAINED and plaintiffs petition as to Judge
Bonin and Frank A. Marullo is DISMISSED, with prejudice, at plaintiff’s cost.
IT IS FURTHER ORDERED, ADJUDGED, AND DECREED that the
Peremptory Exception of No Cause of Action relative to Leon Cannizzaro and
Nicholas Bergeron filed by Leon A. Cannizzaro and Stephen Bergeron is SUSTAINED

1 The Court of Appeal, First Circuit, lists this as a peremptory exception of no cause of action;
however, defendants, Judge Paul Bonin, Frank A. Marullo, III, and the Judicial Courts of Louisiana lists
the following title: Exceptions of Lack of Procedural Capacity, Improper Service, and No Right of
Action. Therefore, in the Judgment above, it is listed as the Peremptory Exception of No Right of
Action.

19th JUDICIAL DISTRICT COURT

and plaintiffs petition as to Leon A. Cannizzaro and Nicholas Bergeron is
DISMISSED, at plaintiffs cost
IT IS FURTHER ORDERED, ADJUDGED, and DECREED that the Declinatory
Exception of Improper Venue filed by Leon A. Cannizzaro and Nicholas Bergeron is
rendered MOOT as this matter was dismissed pursuant to defendants' Peremptory
Exception of No Cause of Action.
IT IS FURTHER ORDERED, ADJUDGED, and DECREED that the Dilatory
Exception of Nonconformity of the petition with any of the requirements of art. 891
and vagueness and ambiguity of the petition filed by Leon A. Cannizzaro and
Nicholas Bergeron is rendered MOOT as this matter was dismissed pursuant to
defendants' Peremptory Exception of No Cause of Action.
IT IS FURTHER ORDERED that the Clerk's Office of the 19* Judicial District,
Parish of East Baton Rouge, supplement the appellate record with this Judgment on
or before Ianuarv7. 2020.
DONE AND SIGNED in Baton Rouge, Louisiana, this 2nd day of January,
2020.

hC'WJ&E DONACp#. jo
^

NINETEENTH HTDldaL DISTRICT COURT
SECTION 24

PLEASE SERVE:
Glenn Damond
5680 Prescott Road, Apt. 21
Baton Rouge, LA 70805
Plaintiff, Pro Se
David G. Sanders
1885 North 3rd St.
P.O.Box 94005
Baton Rouge, LA 70804-9005
David M. Fink
265 Canal St., St. 1155
New Orleans, LA 70130

19th JUDICIAL DISTRICT COURT

1

J
»•

t

East baton rouge par|sh C-675084''
Filed Apr 01, 2019 8:30 AM

24

(___Deputy Clerk of Court_____________

.

19th JUDICIAL DISTRICT court for the parish OF EAST baton rouge
I

STATE OF LOUISIANA
NO. C-675084

SECTION 24
GLENN DAMOND
VERSUS

FRANK A. MARULLO, HI., PAUL A. BONIN, NICHOLAS
STEPHEN BERGERON, JUDICIARY COURTS OF THE STATE OF
LOUISIANA and THE CITY OF NEW ORLEANS
FILED:
DEPUTY CLERK
JUDGMENT REGARDING NICHOLAS STEPHEN BERGERON’S
DILIATORY, DECLINATORY, and PEREMPTORY EXCEPTIONS
This matter came on the defendant Nicholas Stephen Bergeron’s dilatory, declinatory, and
peremptory exceptions against petitioner, Glenn Damond on February 11,2019.
Present:

David M. Fink, LSBA No. 33550
Attorney for Nicholas Bergeron
and
Glenn Damond, pro se

When after considering the pleadings, memorandums, arguments of counsel, and evidence,
the court finds as follows:
IT IS ORDERED, ADJUDGED, and DECREED that Nicholas Stephen Bergeron is
entitled to prosecutorial immunity and accordingly his peremptory exception of no cause of action
is GRANTED and this matter is dismissed at petitioner, Glenn Damond’s cost.
IT IS FURTHER ORDERED ADJUDGED, and DECREED that Nicholas Stephen
Bergeron’s declinatory exception for improper venue, dilatory exception for nonconformity of the
petition with any of the requirements of LSA - C.C.P. 891, vagueness or ambiguity of the petition,
and peremptory exception of no cause of action regarding the petitioner’s fraud and conspiracy
claim is hereby MOOT as this matter is dismissed pursuant to exception identified in the preceding
paragraph.

1 I Glenn Damond v. Frank A. Marullo, III, Judgment regarding Nicholas Stephen
| Bergeron’s declinatory, dilatory and peremptory exceptions

EAST BATON ROUGE PARISH C-675084 '
Filed Sep 23, 20201:18 PM
24
.
Deputy Clerk of Court

-r...

«

State of Louisiana
Court of Appeal
First Circuit

j

*******

2019 CA 0675
Glenn Damond
versus

Frank A. Marullo III, Paul A. Bonin,.Nicholas Stephen
Bergeron, Judiciary Courts of the State of Louisiana, Frank
• w..
A. Marullo. Jr., and City of New Orleans
A TRUE COPY

Judoment.Rendered:

COURT OF APPEAL, FIRST CIRCUIT
. STATE OF LOUISIANA
PATE

^ ^ ^0

*******

,

, Appealed from the
Nineteenth Judicial District Court
• .....- In and for the Parish of East Baton Rouge • State of Louisiana
Docket Number 675084 • Section 24
The Honorable R. Michael Caldwell, Judge Presiding
•}$

jJ#

«|«

jjj

Glenn Damond
Baton Rouge, Louisiana

Appellant
Plaintiff—In Proper Person

Jeff Landry
Attorney General

Attorneys for Appellees
Defendants—Judge Frank A.
. Marullo, Jr., Judge Paul Bonin, .
and Frank A. Marullo, III

. David G. Sanders
Assistant Attorney General
Baton Rouge, Louisiana
David M. Fink
Bernard L. Charbonnet, Jr.
New Orleans, Louisiana

; Attorneys for Appellee
Defendant—Nicholas Stephen
Bergeron
*******

fore:

McClendon, Welch, and Holdridge, JJ.

r

.

~

m

«**'»•* .
C

WELCH, J.
The plaintiff, Glenn Damond, devolutively appeals the trial court’s judgment
sustaining a peremptory exception raising the objections of prescription and no
cause of action on the basis of judicial immunity filed by the defendants—retired
Orleans Parish Judge Frank A. Marullo, Jr., Orleans Parish Judge Paul A. Bonin,
and Minute Clerk for the Criminal District Court of Orleans Parish Frank A.
Marullo, III—and which dismissed all of the plaintiffs claims against those
defendants, with prejudice. For the following reasons, we affirm;
THE ALLEGATIONS OF THE PETITION
Mr. Damond filed this lawsuit on October 16, 2018, against retired Judge
Marullo, Judge Bonin, Minute Clerk Marullo, Orleans Parish Assistant District
Attorney (“ADA”) Nicholas Stephen Bergeron, the Judiciary Courts of the State of
Louisiana (“Judiciary Courts”), and the City of New Orleans. (“City”).

Mr.

Damond alleged that the defendants engaged in a conspiracy to use fraudulent
documents to deprive him of liberty, subject him to confinement and cruel and
unusual punishment, and gain an unjust enrichment. Specifically, Mr. Damond
alleged that he was arrested on October 27, 1996, and that on December 12, 1996,
the City filed a “fraudulent document” titled a true bill of indictment and converted
him “into a thing” by modifying his name to “DAMOND GLENN.” Mr. Damond
further alleged that he was coerced into signing a guilty plea on March 23, 1996,
“another fraudulent document,” that caused him to serve fourteen years, and nine
months in prison.
Mr. Damond claimed that on December 17, 1998, retired Judge Marullo,
through the Judiciary Courts, “securitized” the fraudulent document and sold the
“instrument” on the open stock market. Mr. Damond alleged that the “securitized
bond” has a value of $52,270,000.00 and is being traded on the stock market “until
the retirement of [defendant’s] off book accounts.”
2

Mr. Damond further alleged that on July 27,: 2018, he submitted the
foregoing information to. Judge Bonin and ADA' Bergeron to “correct,” but that
Judge Bonin, ADA Bergeron, and Minute Clerk Marullo “ignored the paperwork,'
disregarded it[,] and held [four] private meetings to destroy those documents”, .
Based.on his allegations, Mr. Damond claimed entitlement to damages.
DEFENDANTS’ EXCEPTIONS
On November 30, 2018, retired Judge Marullo, Judge Bonin, and Minute
{

'

.

Clerk Marullo filed a peremptory exception raising the objection of prescription
and the objection of no cause of action on the basis of judicial immunity. On
December 26, 2018, ADA Bergeron filed a declinatory exception raising the
objection of improper venue; a dilatory exception objecting to the nonconformity
of the petition with the provisions of La. C.C.P. art 891, ambiguity, and vagueness;
and a peremptory exception raising the objection of no cause of action on the basis
of prosecutorial immunity. Mr. Damond opposed the defendants’ exceptions.
TRIAL COURT’S RULING AND THE APPEAL
The trial court heard the defendants’ exceptions on February 11, 2019. ,
Following the hearing, the trial court orally sustained the peremptory exception
raising the objection of prescription and objection of no cause of action , on the
basis of judicial immunity relative to retired Judge Marullo, Judge Bonin, and
Minute Clerk Marullo. The trial court signed a judgment in accordance with that
ruling on March 6, 2019. On March 11, 2019, Mr. Damond filed a motion to
devolutively appeal the trial court’s March 6, 2019 judgment, which the trial court
granted in an order of appeal signed on March 13, 2019. ;
Also following the February 11,2019 hearing, the trial court orally sustained
the peremptory exception raising the objection of no cause of action on the basis of
prosecutorial immunity relative to ADA Bergeron.

The trial court thereafter

signed a judgment on April 8, 2019, sustaining the peremptory exception raising
3

the objection of no. cause of action on the basis of* prosecutorial immunity relative
to ADA Bergeron and ruling that his objections of improper venue, nonconformity,
vagueness, and ambiguity were moot.
However, jurisdiction of the trial court over all matters reviewable under the
appeal is divested, and that of the appellate court attaches, on the granting of the
order for a devolutive appeal. La. C.C.P. art. 2088(A). Further, an appellate court
not only has an independent duty to consider whether it has subject matter
jurisdiction over the matter, but also has the sole authority to determine whether an
appeal is properly before it once the trial court’s jurisdiction has been divested.
Hernandez v. Excel Contractors, Inc., 2018-1091 (La. App. 1st Cir. 3/13/19), 275
So. 3d 278, 284. Once, the jurisdiction of the trial court is divested, the appellate
court alone may determine whether an appeal is properly before, it. This right in
the appellate court rests solely within the power and jurisdiction, of the appellate
court by virtue of its supervisory jurisdiction over the lower tribunal. Gros v.
STMG Lapeyre, LLC, 2014-0848 (La,.App. 1st Cir. 5/6/15), .2015 WL 2169680, ’
at *3 (unpublished).
Any order or judgment rendered subsequent to the order granting an appeal
is null if that order Or judgment purports to address a matter which is at. the time
reviewable under the appeal, Hernandez, 275 So. 3d at 283; see also La. C.C.P.
art. 2088.

Although the trial court may still correct any. misstatements,

irregularities or informalities, or omission of the trial record as provided in La.
C.C.P. art. 2132, there is no authority for a trial court to correct a judgment after it
is divested of jurisdiction. Costanza v. Snap-On Tools, 2013-0332, 2013-0333
(La. App. 1st Cir. 3/5/14), 2014 WL 886021, at *4 (unpublished). Thus, even when
an appellate court ultimately determines that it lacks appellate jurisdiction,
.

•

i

jurisdiction over the issues and the parties included in that judgment is divested

4

from the trial court upon the signing of the order |of appeal. Hernandez, 275 So.
3d at 283-84.
Herein, Mr. Damond sought and was granted a devolutive appeal from the
trial court’s March 6, 2019 judgment, which included.a ruling on. Mr. .Damond’s
claims relative to retired Judge Marullo, Judge Bonin, and Minute Clerk Marullo.
The March 6, 2019. judgment appealed from specifically excluded any ruling
,

.

relative to Mr. Damond’s claims against ADA Bergeron. Accordingly, the trial
court retained jurisdiction over Mr. Damond’s claims against ADA Bergeron
pursuant to La. C.C.P. art. 2088. Therefore, the April 8, 2019 judgment sustaining
the peremptory exception raising the objection of no cause of action on the basis of
prosecutorial immunity relative to ADA Bergeron rendered by the trial court
subsequent to the granting of the March 13, 2019 order of appeal is not a nullity.
However, the April 8, 2019 judgment sustaining ADA Bergeron’s exception
and dismissing Mr.- Damond’s claims against him is not before us in this appeal.
The record does not indicate when notice of that, judgment was mailed. Mr.
Damond did not file a motion to appeal the April 8, 2019 judgment When an
appellant fails to timely appeal a final judgment, the judgment acquires the
authority of a thing adjudged, and a court of appeal has no jurisdiction to alter the
judgment. Salvador v. Main St. Family Pharmacy, L.L.C., 2017-1757 (La. App..
1st Cir. 6/4/18), 251 So. 3d 1107, 1114. Lacking jurisdiction'to review the April 8,
2019 judgment, we, do not consider any assignment of error, any brief, or the
answer to the appeal directed to the April 8, 2019 judgment.
PRESCRIPTION
Liberative prescription is a mode of barring actions as a result of inaction for
a period of time. La. C.C. art. 3447. Mr. Damond’s claims comprise a delictual
action that is subject to a liberative prescription of one year, which commences to
run from the day injury or damage is sustained. See La. C.C. art. 3492.
5

.

Appellate review applicable to a peremptory exception depends on the
manner in which the exception is heard. Evidence! may be introduced to support or
controvert the exception of prescription when the grounds thereof do not appear
from the petition. La. C.C.P. art. 931; Shannon v. Vannoy, 2017-1722 (La. App.
1st Cir. 6/1/18), 251 So. 3d 442, 448. In the absence of evidence, the exception
must be decided on the facts alleged in the petition, which are accepted as true. '
Shannon, 251 So. 3d at 448-49. When evidence is received at the trial of the
exception, the appellate court reviews the trial court’s factual findings under the
manifest error-clearly wrong standard, Shannon, 25.1 So. 3d at 449. However, in
a case involving no dispute regarding material , facts, only the determination of a
legal issue, a reviewing court must apply the de novo standard of review, under
which the trial court’s legal conclusions are not entitled to deference. Shannon,
251 So. 3d at 449. In this matter, no evidence was introduced at the hearing on the
exception. Accordingly, we accept as true the facts alleged in the petition and
apply the de novo standard to our review of the trial court’s legal conclusions.
All of Mr. Damond’s claims against retired Judge;Marullo stem from events
that he alleged occurred in 1996 and 1998: his criminal indictment, coercion into
pleading guilty, and the securitization of a “fraudulent document.” Mr. Damond
does riot specify the date or dates when Judge Bonin and. Minute Clerk Marullo
allegedly acted, only that Mr. Damond filed “paperwork” on July 27, 2018. As
delictual actions are subject to a prescriptive period of one year, these claims
against retired Judge Marullo are clearly prescribed on the face of Mr. Damond’s
petition that was filed on October 16, 2018."
Ordinarily, the party urging prescription bears the burden of proving such at
the trial of the exception; however, if the petition is facially prescribed, as in this
matter, the burden shifts to the plaintiff to show his action is not prescribed.
Quinn v. Louisiana Citizens Property Insurance Corp., 2012-0152 (La.
6

I
*

s
I

i

;

i
i

11/2/12), 118 So. 3d 1011, 10.17. Mr. Damond did
not submit any argument or
i
*

;

’ VC.

i‘

t

evidence to the trial court to satisfy this burden of proof. Therefore, the trial court

i

i

r
j

properly sustained the peremptory exception raising the objection of prescription.
v.

NO CAUSE OF ACTION

/

As used in the context of the peremptory exception, a “cause of action”
*,

t' . • ’

i *

refers to the operative facts which give rise to the plaintiffs right to judicially.
assert the action against the defendant. Scheffler v. Adams and Reese, LLP,
....

.

v

c',;

.

1

V •

' V.

. -/v ■

<

2006-1774 (La. 2/22/07), 950 So. 2d 641, 646. The purpose of the. peremptory
"■

.

*

k

_1

.

■

t*

exception raising the objection of no cause of action is to test the legal sufficiency
i,

t

of the petition by determining whether the law affords a remedy on the facts
alleged in the petition.

/

i

T .

j*

Scheffler, 950 So. 2d at 646. No evidence may be
'

IVv'.

v

V-

introduced to support or controvert the exception of no cause of action; La. C.C.P.
art 931. The exception is triable on the face of the pleadings, and, for purposes of
<

r V

+

resolving the issues raised by the exception, the well-pled facts in the petition must
1

■

‘

■

-

..

•

.. •

Z-

'J

,
I

be accepted as true. The issue at the trial of the exception is whether, on the face
t

*

of the petition, the plaintiff is legally entitled to the relief sought; Scheffler, 950
v

•

.

■

'

.

. .

\

•:

;

■

So. 2d at 646.

*.

Louisiana retains a system of fact pleading, and mere conclusions of the
* ,

♦

-

,

*

i'

*

'

•

•

,

:•

...

>

* \

* : “

a

..

-

*

V*

.

plaintiff unsupported by facts will not set forth a cause or right of action. The
^ *

•

•

*\

\ \
y

‘

*

:'

•

* •

*

K

'

.

.

•

.

'
t

'

■ f

.4

burden of demonstrating that a. petition fails to state a cause of action is upon the
.

• i \ .*V

' '

■

'

'

''■*! ■

■ V .

;

1...

mover. Scheffler, 950 So. 2d at 646-47. Because the exception of no cause of
action raises a question of law and the trial court’s decision is based solely on the
*

...

vr.

■

i u

sufficiency of the petition, review of the trial court’s ruling on an exception of no
.

'i.

‘

'

.

•

.

.

'

'

'■

.

cause of action is de novo. The pertinent inquiry is whether, in the light most
*

' 4

7' '

favorable to\the plaintiff, and with every doubt resolved in the plaintiffs favor, the .
petition states any valid cause.of action for relief. Scheffler, 950 So. 2d at 646-47
t ■
.

■

A peremptory exception raising the objection of no cause of action is a proper
■ - '

" V ■

'■

■ -7
O

• •'

;•

Vo*

I

*'

1

.

%

g

i
I

which dismissed ail of Glenn Damond’s claims1 against those defendants, with
prejudice, is hereby affirmed. Appeal costs are assessed against the plaintiffappellant, Glenn Damond.
AFFIRMED,

:

:

:

11

WELCH, J.
The plaintiff, Glenn Damond, devolutively appeals the trial court’s judgment
sustaining a peremptory exception raising the objections of prescription and no
cause of action on the basis of judicial immunity filed by the defendants—-retired
Orleans Parish Judge Frank A. Marullo, Jr., Orleans Parish Judge Paul A. Bonin,
and Minute Clerk for the Criminal District Court of Orleans Parish Frank A.
Marullo, III—and which dismissed all of the plaintiffs claims against those
defendants, with prejudice. For the following reasons,-we affirm;
THE ALLEGATIONS OF THE PETITION
Mr. Damond filed this lawsuit on October 16, 2018, against retired Judge
Marullo, Judge Bonin, Minute Clerk Marullo, Orleans Parish Assistant District
Attorney (“ADA”) Nicholas Stephen Bergeron, the Judiciary Courts of the State of
Louisiana (“Judiciary Courts”), and the City of New Orleans (“City”).

Mr.

Damond alleged that the defendants engaged in a conspiracy to use fraudulent
documents to deprive him of liberty, subject him to confinement and cruel and
unusual punishment, and gain an unjust enrichment. Specifically, Mr. Damond
alleged that he was arrested on October 27, 1996, and that on December 12, 1996,
the City filed a “fraudulent document” titled a true bill of indictment and converted
him “into a thing” by modifying his name to “DAMOND GLENN.” Mr. Damond
further alleged that he was coerced into signing a guilty plea on March 23, 1996,
“another fraudulent document,” that caused him to ,serve fourteen years, and nine
months in prison.
Mr. Damond claimed that on December 17, 1998, retired Judge Marullo,
through the Judiciary Courts, “securitized” the fraudulent document and sold the
“instrument” on the open stock market. Mr. Damond alleged that the “securitized
bond” has a value of $52,270,000.00 and is being traded on the stock market “until
the retirement of [defendant’s] off book accounts.”
2

Mr. Damond further alleged that on July 27,12018, he submitted the
foregoing information to. Judge Bonin and ADA' Bergeron to “correct,” but that.
Judge Bonin, ADA Bergeron, and Minute Clerk Marullo “ignored the paperwork,
disregarded it[,] and held [four] private meetings to destroy those documents.”.
Based.on his allegations, Mr. Damond claimed entitlement to damages.
DEFENDANTS’ EXCEPTIONS
On November 30, 2018, retired Judge Marullo, Judge Bonin, and Minute
Clerk Marullo filed a peremptory exception raising the objection of prescription
and the objection of no cause of action on the basis of judicial immunity. On
December 26, 2018, ADA Bergeron filed a declinatory exception raising the
objection of improper venue; a dilatory exception objecting to the nonconformity
of the petition with the provisions of La. C.C.P. art 891, ambiguity , and vagueness;
and a peremptory exception raising the objection of no cause of action on the basis
of prosecutorial immunity. Mr. Damond opposed the defendants’ exceptions.
TRIAL COURT’S RULING AND THE APPEAL
The trial court heard the defendants’ exceptions on February 11, 2019. ,
Following the hearing, the trial court orally sustained the peremptory exception
raising the objection of prescription and objection of no cause of action .on the
>

*

basis of judicial immunity relative to retired Judge Marullo, Judge Bonin, and.
Minute Clerk Marullo. The trial court signed a judgment in accordance with that
ruling on March 6, 2019. On March 11, 2019, Mr. Damond filed a motion to
devolutively appeal the trial court’s March 6, 2019 judgment, which the trial court
granted in an order of appeal signed on March 13, 2019.
Also following the February 11, 2019 hearing, the trial court orally sustained
the peremptory exception raising the objection of no cause of action on the basis of
prosecutorial immunity relative to ADA Bergeron.

The trial court thereafter

signed a judgment on April 8, 2019, sustaining the peremptory exception raising
3

••

